March 7, 2012

TO:             Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Gloria L. Jarmon/
                Deputy Inspector General for Audit Services


SUBJECT:        Review of Medicaid Administrative Costs Claimed by New Jersey for
                State Fiscal Years 2005 and 2006 (A-02-08-01009)


Attached, for your information, is an advance copy of our final report on Medicaid
administrative costs claimed by New Jersey for State fiscal years 2005 and 2006. We will issue
this report to the New Jersey Department of Human Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Services Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov
or James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620
or through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-08-01009.


Attachment
                                                              O FFICE OF A UDIT S ERVICES , R EGION II
                                                                J ACOB K. J AVITS F EDERAL B UILDING
                                                                     26 F EDERAL P LAZA , R OOM 3900
March 8, 2012                                                                 N EW Y ORK, NY 10278

Report Number: A-02-08-01009

Jennifer Velez, Esq.
Commissioner
New Jersey Department of Human Services
222 South Warren Street
P.O. Box 700
Trenton, NJ 08625-0700

Dear Ms. Velez:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Administrative Costs Claimed by New
Jersey for State Fiscal Years 2005 and 2006. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact John J. Madigan, Audit Manager, at (518) 437-9390, extension 224, or through email at
John.Madigan@oig.hhs.gov. Please refer to report number A-02-08-01009 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Jennifer Velez, Esq.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




     REVIEW OF MEDICAID
    ADMINISTRATIVE COSTS
  CLAIMED BY NEW JERSEY FOR
     STATE FISCAL YEARS
        2005 AND 2006




                       Daniel R. Levinson
                        Inspector General

                          March 2012
                         A-02-08-01009
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In New Jersey, the Department of Human Services (State agency) administers the Medicaid
program. The State agency contracts with community-based mental health providers to provide
Medicaid-related mental health and related services. Section 1903(a)(7) of the Act permits
States to claim Federal reimbursement for 50 percent of the costs of administrative activities that
are necessary for the proper and efficient administration of the State Medicaid plan (Medicaid
administration). States submit expenditures for Medicaid administration activities for
reimbursement on Form CMS-64, the Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program (Form CMS-64). New Jersey computes the cost of Medicaid
administration activities performed by staff of contracted mental health providers using a process
that results in New Jersey’s Medicaid Administrative Claim (MAC). To compute the MAC for
State fiscal years (FY) 2005 and 2006, the State agency entered into a contingency fee contract
with Maximus, Inc. (Maximus), which developed a four-step methodology that included a
random moment timestudy (RMTS) to identify the Medicaid administration activities of staff in
contracted mental health providers.

For State FYs 2005 and 2006, the State agency claimed Federal Medicaid reimbursement totaling
$44,962,841 ($22,481,421 Federal share) for the cost of Medicaid administration activities
performed by staff of contracted community mental health providers on the Form CMS-64.

OBJECTIVE

Our objective was to determine whether the State agency’s MAC for FYs 2005 and 2006
complied with Federal requirements for claiming costs associated with the administration of the
State Medicaid plan.

SUMMARY OF FINDINGS

The State agency’s MAC did not comply with Federal requirements for claiming costs associated
with the administration of the State Medicaid plan. Specifically, Maximus included unallowable
salaries and operating costs in the cost pool used to compute the MAC, resulting in a claim for
$22,223,499 ($11,111,750 Federal share) in excess Medicaid administrative costs. In addition,
as part of the allocation method used to identify salary costs to be included in the payment rate,
Maximus assigned Medicaid-reimbursable RMTS codes to workers’ activities that were not
allowable costs related to Medicaid administration or could not be documented as related to

                                                 i
Medicaid and performed an RMTS that deviated from acceptable statistical sampling practices.
Finally, in calculating the MAC payment rate, the State agency used Medicaid eligibility rates
that could not be documented. Therefore, the remaining $22,739,432 ($11,369,671 Federal
share) of administrative costs claimed was unallowable. These errors occurred because the State
agency did not establish adequate policies and procedures to ensure that its MAC complied with
Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $22,481,421 to the Federal Government,

   •   maintain supporting documentation for Medicaid-reimbursable activities,

   •   establish policies and procedures to ensure that future MAC calculations follow
       acceptable cost principles and CMS requirements, and

   •   maintain supporting documentation for Medicaid eligibility rates used in computing the
       MAC.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency did not agree with our findings and
recommendations related to its inclusion of unallowable administrative costs in its Medicaid
administrative cost pool, its assignment of Medicaid-reimbursable RMTS codes for unallowable
and undocumented activities, and its deviation in the RMTS from acceptable statistical sampling
practices. The State agency agreed with our recommendation to maintain supporting
documentation for Medicaid eligibility rates and described steps that it has taken to address our
finding.

After reviewing the State agency comments, we maintain that our findings and recommendations
are valid. The State agency’s comments appear in their entirety as Appendix B.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION.................................................................................................................1

          BACKGROUND ........................................................................................................1
              Medicaid Program ...........................................................................................1
              Medicaid Administration Costs ......................................................................1
              New Jersey’s Community Mental Health Services
                Medicaid Administrative Claim ..................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................3
               Objective .........................................................................................................3
               Scope ...............................................................................................................3
               Methodology ...................................................................................................3

FINDINGS AND RECOMMENDATIONS .......................................................................4

          UNALLOWABLE ADMINISTRATIVE COSTS INCLUDED IN MEDICAID
           ADMINISTRATION COST POOL ........................................................................4
              Federal Requirements .....................................................................................4
              Unallowable Overhead Costs ..........................................................................5
              Unallowable Salaries and Wages ....................................................................5

          RANDOM MOMENT TIMESTUDY OBSERVATIONS IMPROPERLY
           CODED AS MEDICAID-REIMBURSABLE .......................................................6
              Federal Requirements .....................................................................................6
              Random Moment Timestudy Codes Incorrectly Assigned
               or Insufficiently Documented .......................................................................7

          RANDOM MOMENT TIMESTUDY DEVIATED FROM ACCEPTABLE
           STATISTICAL SAMPLING PRACTICES ............................................................8
               Federal Requirements .....................................................................................8
               Random Moment Timestudy Used To Allocate Salaries of Employees
                Not in the Sampling Universe ......................................................................8
               Random Moment Timestudy Did Not Cover Period to Which It
                Was Applied.................................................................................................8
               Random Moment Timestudy Did Not Reduce the Potential for Bias ............8

         MEDICAID ELIGIBILITY RATES NOT DOCUMENTED .....................................9

         RECOMMENDATIONS .............................................................................................9




                                                                    iii
    STATE AGENCY COMMENTS AND
     OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................9
         Unallowable Administrative Costs Included in
           Medicaid Administrative Cost Pool ...........................................................10
         Random Moment Timestudy Observations Improperly
           Coded as Medicaid-Reimbursable .............................................................12
          Random Moment Timestudy Deviated From Acceptable
           Statistical Sampling Practices ....................................................................13
         Medicaid Eligibility Rates Not Documented ................................................14

APPENDIXES

    A: COMMUNITY-BASED MENTAL HEALTH PROVIDERS THAT
       DID NOT PROVIDE SERVICES COVERED BY MEDICAID

    B: STATE AGENCY COMMENTS




                                                       iv
                                            INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Section 1903(a)(7) of the Act permits States to claim Federal reimbursement for 50 percent of
the costs of administrative activities that are necessary for the proper and efficient administration
of the State Medicaid plan (Medicaid administration). States submit expenditures for Medicaid
administration for reimbursement on Form CMS-64, the Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program (Form CMS-64).

Medicaid Administration Costs

To clarify activities that are “necessary for proper and efficient administration of the State
[Medicaid] plan,” CMS provided guidance in a State Medicaid Director letter issued on
December 20, 1994. The letter stated that allowable claims must be directly related to Medicaid
State plan or waiver services and may not include the overhead costs of a provider facility or the
operating costs of an agency whose purpose is other than the administration of the Medicaid
program. The letter provides that States should ensure that their methodologies for
distinguishing administrative activities eligible for Federal financial participation conform to the
guidelines in the letter and are included in the State’s cost allocation plan.

Federal regulations (45 CFR § 95.507(a)(2)) require that cost allocation plans conform to the
accounting principles and standards in Office of Management and Budget (OMB) Circular A-87,
Cost Principles for State, Local, and Indian Tribal Governments (2 CFR pt. 225), and other
pertinent regulations and instructions, including:

   •   Program costs must be reasonable and necessary and allocated in accordance with the
       benefits received by the program (OMB Circular A-87, Att. A, §§ C.1.a and C.3.a.

   •   Random moment sampling may be used to allocate salaries and wages to a Federal
       award, but such systems must “meet acceptable statistical sampling standards”
       (OMB Circular A-87, Att. B, § 8.h.6).

   •   Costs must be adequately documented (OMB Circular A-87, Att. A, § C.1.j).




                                                  1
New Jersey’s Community Mental Health Services Medicaid Administrative Claim

In New Jersey, the Department of Human Services (State agency) administers the Medicaid
program. The State agency contracts with community-based mental health providers to provide
Medicaid-covered mental health and related services. 1 Mental health provider staff also perform
certain activities in support of the State’s administration of the State Medicaid plan.

For FYs 2005 and 2006, the State agency claimed Federal Medicaid reimbursement on the Form
CMS-64 totaling $44,962,841 ($22,481,421 Federal share) for Medicaid administration activities
performed by mental health providers. 2 The payment rate for these services was computed using
a process that resulted in the State’s MAC. To develop the MAC, the State agency entered into a
contingency fee contract with Maximus, Inc. (Maximus), which designed a four-step method to
identify the costs of Medicaid administration activities performed by staff of contracted mental
health providers: 3

      1. Maximus first calculated the MAC cost pool, which included the salaries and other
         operating costs contained in annual operating budgets for the mental health providers. 4

      2. To estimate the percentage of time and related costs spent by mental health provider staff
         on Medicaid administration efforts, Maximus performed an RMTS of the activities of
         sampled employees of sampled mental health providers. 5

      3. To determine the Medicaid-related percentage of the employees’ administration efforts,
         Maximus applied the applicable Medicaid eligibility rates—the providers’ number of
         Medicaid patients divided by total patients.

      4. Finally, Maximus applied the estimated percentage of the employees’ efforts applicable
         to Medicaid administration to the MAC cost pool.


1
  The State contracted with 55 community-based mental health providers in State fiscal year (FY) 2005 and 59 in
State FY 2006. The mental health providers are managed by nonprofit organizations and county governments. The
mental health providers’ services include Medicaid and non-Medicaid psychiatric treatment, community residences
(e.g., group homes), case management, and job placement.
2
  In another audit (A-02-07-01050), we reviewed whether the State agency’s Medicaid Administrative Claim (MAC)
for FY 2007 complied with Federal requirements for claiming costs associated with administration of the State
Medicaid plan. Because of the volume of random moment timestudy (RMTS) observations (3,168) used to
determine the State agency’s MAC for FY 2007, we did not analyze each observation. However, our review of
selected observations found a high number of errors in properly assigning activities to Medicaid-reimbursable codes.
For our current audit period (FYs 2005 and 2006), the State agency used 750 observations to determine its MAC.
Therefore, we were able to analyze all of the individual observations.
3
 The contingency fee contract was valued at 4.75 percent of new Federal funds generated by Maximus’ efforts. The
State agency did not claim the contingency fee for Federal reimbursement.
4
    Maximus utilized FY 2005 operating budgets for FYs 2005 and 2006 in the MAC cost pool.
5
  On the selected date and time, Maximus contacted a sample of employees and recorded an activity code for each
reported activity. Maximus calculated the percentage of responses related to various activities.


                                                         2
The resulting MAC was calculated using an estimate that 34 percent of employees’ staff time
across all mental health agencies was used to perform activities that directly support
administration of the State Medicaid plan. 6

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s MAC for FYs 2005 and 2006
complied with Federal requirements for claiming costs associated with the administration of the
State Medicaid plan.

Scope

We reviewed the $44,962,841 ($22,481,421 Federal share) that the State agency claimed on its
Forms CMS-64 for FYs 2005 and 2006 related to administrative costs applicable to the mental
health providers.

Our objective did not require an understanding or assessment of the State agency’s internal
control structure. We limited our review to internal controls related to the State agency’s and
Maximus’ calculation of the MAC payment rate.

We performed our fieldwork at the State agency’s offices in Trenton, New Jersey, and at 37
mental health providers throughout New Jersey whose costs were used to calculate the MAC.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal laws, regulations, and guidance;

    •    reviewed the State agency’s contingency fee contract with Maximus;

    •    held discussions with the State agency, Maximus, U.S. Department of Health and Human
         Services (HHS) Division of Cost Allocation, and CMS officials to gain an understanding
         of the process for calculating the MAC;

    •    reconciled the quarterly administrative costs claims developed by Maximus to the costs
         submitted by the State agency on the Forms CMS-64;




6
 Based on the RMTS, 14 percent of employees’ activities were allocated to direct Medicaid reimbursable codes.
However, consistent with CMS guidelines for school-based settings, the State agency redistributed the general
administrative activities of the sampled employees across all codes, resulting in an additional 20 percent of activities
being allocated to Medicaid.


                                                           3
   •   reviewed the budgeted costs included in the Medicaid administration cost pool for the
       mental health providers;

   •   reviewed the 750 RMTS observations, taken between February 15 and April 15, 2005,
       that Maximus used to allocate employee time and costs to the Medicaid program;

   •   analyzed the activity descriptions for 107 observations coded as Medicaid-reimbursable
       and 643 observations coded as non-Medicaid-reimbursable to determine whether the
       observations were correctly coded;

   •   reviewed documentation to support the statewide Medicaid eligibility rates; and

   •   visited 37 mental health providers to review documentation supporting each provider’s
       Medicaid eligibility rates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency’s MAC did not comply with Federal requirements for claiming costs associated
with the administration of the State Medicaid plan. Specifically, Maximus included unallowable
salaries and operating costs in the cost pool used to compute the MAC, resulting in a claim for
$22,223,499 ($11,111,750 Federal share) in excess Medicaid administration costs. In addition,
Maximus assigned Medicaid-reimbursable RMTS codes to workers’ activities that were not
allowable costs of Medicaid administration or could not be documented as related to Medicaid
and performed an RMTS that deviated from acceptable statistical sampling practices. Finally, in
calculating the MAC payment rate, the State agency used Medicaid eligibility rates that could
not be documented. Therefore, the remaining $22,739,432 ($11,369,671 Federal share) of
administrative costs claimed was unallowable. These errors occurred because the State agency
did not establish adequate policies and procedures to ensure that its MAC complied with Federal
requirements.

UNALLOWABLE ADMINISTRATIVE COSTS INCLUDED IN
MEDICAID ADMINISTRATION COST POOL

Federal Requirements

Section 1903(a)(7) of the Act permits States to claim Federal reimbursement for 50 percent of
the costs of administrative activities that are “found necessary by the Secretary for the proper and
efficient administration of the State [Medicaid] plan.”




                                                 4
On December 20, 1994, CMS issued a State Medicaid Director Letter reiterating its
“long-standing policy” on Federal financial participation for costs “found necessary by the
Secretary for the proper and efficient administration of the State [Medicaid] plan.” The letter
stated that allowable administrative costs must be “directly related to Medicaid State plan or
waiver services” and may not include the overhead costs of “operating a provider facility” or
“the operating costs of an agency whose purpose is other than the administration of the Medicaid
program.” The letter also stated that allowable administrative costs do not include gaining
access to or coordinating non-Medicaid services, even if such services are health related and do
not include administrative costs that are part of a direct service. Medicaid pays for
administrative costs related to a direct service as part of the payment made for the medical or
remedial service. The activities may not be claimed as a separate Medicaid administration cost.

To be allowable under a Federal award, OMB Circular A-87, Att. A, § C.1.a, states that costs
must be necessary and reasonable for the proper and efficient performance and administration of
the award. Further, costs must be allocable and chargeable in accordance with the relative
benefits received. Under OMB A-87, Att. B, § 8.h.6, the sampling universe must include all of
the employees whose salaries and wages are to be allocated based on sample results.

Unallowable Overhead Costs

Maximus improperly included overhead costs of the mental health providers in the MAC cost
pool. The costs consisted of operating costs (e.g., indirect salaries and wages, 7 rent, utilities, and
depreciation) that were not directly related to Medicaid administration and were overhead costs
of the provider facilities or operating costs of agencies whose purposes were not related to the
administration of the Medicaid program. As a result, the State agency claimed excess Medicaid
administration costs totaling $13,559,408 ($6,779,704 Federal share).

Unallowable Salaries and Wages

Maximus improperly included unallowable salaries and wages in the MAC cost pool related to
employees at 15 mental health providers that provided few or no services covered under the
Medicaid program. CMS’s 1994 State Medicaid Director Letter states that an allowable Medicaid
administration cost must be “directly related to Medicaid State Plan or waiver services.”
Specifically, the mental health providers furnished primarily mental health-related social, family,
legal, and housing services that were not reimbursable by Medicaid. The State agency did not
document that activities performed by employees at these agencies, and coded as Medicaid
reimbursable in the RMTS, were directly related to the Medicaid program or were separate from
activities that were, or should have been, reimbursed as part of the direct services furnished by the
agency. As a result, the State agency claimed excess Medicaid administration costs totaling



7
 The unallowable salaries and wages were related to the mental health providers’ general and administrative
employees who were not included in the RMTS roster. The State agency instructed contract agencies that
participated in the RMTS to include on the RMTS roster all employees who perform reimbursable MAC activities
and notified the agencies that they could only claim MAC reimbursement for staff included in the RMTS. Maximus
also included unallowable salaries and wages for general and administrative staff who did participate in the RMTS,
but we were unable to determine the monetary effect of this.


                                                        5
$3,852,000 ($1,926,000 Federal share). Appendix A details the non-Medicaid services provided at
the 15 providers.

In addition, Maximus improperly included unallowable direct salaries and wages in the MAC
cost pool related to contracted mental health employees who were properly excluded from
Maximus’ RMTS sample universe. As a result, the State agency claimed excess Medicaid
administrative costs totaling $4,812,091 ($2,406,045 Federal share).

RANDOM MOMENT TIMESTUDY OBSERVATIONS IMPROPERLY CODED AS
MEDICAID-REIMBURSABLE

Federal Requirements

In the December 20, 1994, State Medicaid Director Letter, CMS provided specific guidance on
allowable Medicaid administration activities. The letter, quoted in relevant part below, stated that an
allowable administrative cost:

           •   must be directly related to Medicaid State plan or waiver services.
               Allowable administrative costs do not include gaining access to or
               coordinating non-Medicaid services even if such services are health-
               related. Also, allowable administrative costs do not include gaining
               access to or coordinating social, educational, vocational, legal or
               other non-Medicaid services.

           •   cannot reflect the cost of providing a direct medical or remedial
               service.

           •   cannot be an integral part or extension of a direct medical or remedial
               service, such as patient follow-up, patient assessment, patient
               counseling, or other physician-extender activities. Such services are
               properly paid for as part of the payment made for the medical or
               remedial service.

           •   may not include funding for a portion of general public health
               initiatives that are made available to all persons, such as public health
               education campaigns, unless the campaign is explicitly directed at
               assisting Medicaid eligible individuals to access the Medicaid
               program.

           •   may not include the overhead costs of operating a provider facility.

           •   may not include the operating costs of an agency whose purpose is
               other than the administration of the Medicaid program.

           •   must be included in a cost allocation plan that is approved by [CMS]
               and supported by a system which has the capability to isolate the


                                                   6
                 costs which are directly related to the support of the Medicaid
                 program from all other costs incurred by the agency.

Random Moment Timestudy Codes Incorrectly Assigned or Insufficiently Documented

For the random moments that Maximus sampled in the RMTS, we found that Medicaid-
reimbursable codes were incorrectly assigned to non-Medicaid activities or that activities were
not sufficiently documented to show that they were related to Medicaid. For example:

    •   Work related to a Medicaid beneficiary’s treatment plan was coded as “Medicaid
        administration for referral, coordination and monitoring of medical services.” However,
        under CMS’s guidance, preparation of a treatment plan would be reimbursed by
        Medicaid as part of payment for the associated medical service and should not be
        assigned to a Medicaid administration code.

    •   A mental health worker’s meeting to discuss the results of an evaluation of a client of the
        State Division of Youth and Family Services was coded as “Medicaid administration for
        program planning.” However, to be allowable as Medicaid administration, the program
        planning activity must be directly related to Medicaid services and should relate to
        planning for improved delivery of Medicaid services to the population served. 8 Under
        CMS’s policies, individual client follow-up would be reimbursed as part of the direct
        service furnished by the agency. The State agency provided no documentation that the
        activity was related to developing plans or strategies to improve delivery of Medicaid
        services to the population served.

    •   A mental health employee’s time spent answering a crisis hotline was coded as
        “Medicaid referral, coordination and monitoring of medical services.” However, the
        crisis line was established for use by the general public and was not targeted to Medicaid-
        eligible individuals. Further, the hotline was funded as part of an emergency services
        program that assisted individuals with accessing non-Medicaid social and other services.
        Under CMS’s policies, costs of general public health initiatives, not explicitly directed to
        assisting Medicaid eligible individuals to access Medicaid services, are not allowable
        Medicaid administration costs.

The State agency was unable to document or otherwise support that activities coded as Medicaid-
reimbursable were directly related to the Medicaid State plan; were separate from activities that
were, or should have been, reimbursed by Medicaid as part of a medical or remedial service; or
were otherwise reimbursable as Medicaid administration. As a result, the State agency’s
remaining claim of $22,739,342 ($11,369,671 Federal share) of administrative costs was
unallowable.


8
 CMS issued additional guidance on administrative claiming specifically for school-based settings in its 2003
Medicaid School-Based Administrative Claiming Guide (Claiming Guide). Although the Claiming Guide would not
apply directly to payment methods for mental health agencies, it provides additional clarification of types of
activities that CMS would consider to be properly coded as Medicaid administration for purposes of conducting an
RMTS. The State agency reported that it used the Claiming Guide in developing its RMTS codes.


                                                       7
RANDOM MOMENT TIMESTUDY DEVIATED FROM
ACCEPTABLE STATISTICAL SAMPLING PRACTICES

Federal Requirements

OMB Circular A-87, Att. B, § 8.h.6 (2 CFR 225 App. B. § 8.h.6), states that random moment
sampling may be used to allocate salaries and wages to a Federal award. Further, “… systems
which use sampling methods … must meet acceptable statistical sampling standards including:
(i) The sampling universe must include all of the employees whose salaries and wages are to be
allocated based on sample results [with certain approved exceptions]; (ii) The entire time period
involved must be covered by the sample; and (iii) The results must be statistically valid and
applied to the period being sampled.”

HHS’s A Guide for State, Local, and Indian Tribal Governments: Cost Principles and
Procedures for Developing Cost Allocation Plans and Indirect Cost Rates for Agreements With
the Federal Government (Reference No. ASMB C-10, pt. 3.4 § 3-23) states that the results of an
acceptable statistical sampling method covering one period of time cannot be applied to a
different period.

Random Moment Timestudy Used To Allocate Salaries of Employees
Not in the Sampling Universe

Salaries of employees that contracted mental health providers did not include on the RMTS
roster as performing reimbursable MAC activities were included by the State agency in the cost
pool that was allocated using the results of the RMTS.

Random Moment Timestudy Did Not Cover Period to Which It Was Applied

The State agency applied the results of the RMTS to a period that was not covered by the RMTS.
Maximus performed the RMTS for the period February 15 through April 15, 2005, but the State
agency applied the RMTS results to administrative costs for the period October 1, 2004, through
June 30, 2006.

Random Moment Timestudy Did Not Reduce the Potential for Bias

Acceptable statistical sampling practices reduce the potential for bias by ensuring that (1) study
participants do not have access to potentially biasing information and (2) selected employees are
not notified in advance. Specifically, Maximus’ RMTS methodology contained the following
departures from acceptable practices to reduce bias:




                                                8
    •   Instructional materials that the State agency provided to the mental health providers
        contained potentially biasing statements that compliance with the RMTS would help
        generate additional funds for New Jersey and the providers. 9

    •   Before Maximus conducted the RMTS, the State agency gave the mental health providers
        the names and contact times of employees who would be surveyed, thus potentially
        influencing the employees’ assigned duties at the time they were polled.

MEDICAID ELIGIBILITY RATES NOT DOCUMENTED

Pursuant to OMB Circular A-87, Att. A, § C.1.j (2 CFR 225 App. A § C.1.j), allowable costs
must be adequately documented.

The State agency did not maintain documents to support the eligibility rates used to determine
the percentage of certain employee efforts applicable to the Medicaid program. In computing the
MAC, the State agency gave each health center the option to develop its own Medicaid eligibility
rate—the center’s number of Medicaid patients divided by total patients—or to use a statewide
rate. Mental health providers used both options during our audit period; however, the mental
health providers and the State agency did not maintain documentation to support the Medicaid
eligibility rates that were reported by the providers and used to compute the MAC.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $22,481,421 to the Federal Government,

    •   maintain supporting documentation for Medicaid-reimbursable activities,

    •   establish policies and procedures to ensure that future MAC calculations follow
        acceptable cost principles and CMS requirements, and

    •   maintain supporting documentation for Medicaid eligibility rates used in computing the
        MAC.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency did not concur with our findings and
recommendations related to its inclusion of unallowable administrative costs in its Medicaid
administrative cost pool, its assignment of Medicaid-reimbursable RMTS codes for unallowable
and undocumented activities, and its deviation in the RMTS from acceptable statistical sampling

9
  By letter dated January 10, 2005, Maximus informed contracted agencies of the amounts the State agency could
expect to recover for each participating staff member and urged “participation in this annual revenue recovery
process.” The letter offered to share a percentage of Federal revenues recovered with participating agencies and
indicated that contracted providers “are encouraged to participate and begin recovering new Federal revenues.”


                                                         9
practices. The State agency agreed with our recommendation to maintain supporting
documentation for Medicaid eligibility rates and described steps that it has taken to address our
finding. State agency’s comments appear in their entirety as Appendix B.

Unallowable Administrative Costs Included in Medicaid Administrative Cost Pool

Applicability of Federal Criteria

State Agency Comments

The State agency stated that the OMB Circular A-87 requirement that costs must be “necessary
and reasonable” applies to its development of its MAC. However, the State agency argued that
“A-87 is only applicable to these provider costs in that the costs paid by the State for the
administrative functions performed by the provider agencies must be reasonable, since they are
contracted provider payments—not costs of the state agency staff directly performing these
activities.”

Office of Inspector General Response

The Federal cost principles set forth in OMB Circular A-87 are applicable to all costs incurred by
the State under its Federal award. To be allowable to Medicaid under OMB Circular A-87, costs
must be both necessary and reasonable and also allocable to Medicaid in accordance with the
benefits received by Medicaid. The State may not develop a Medicaid payment rate based on
costs that are not allowable. CMS’s policy guidance on Medicaid administrative claiming is
consistent with OMB Circular A-87. The December 20, 1994, State Medicaid Director Letter
provides that allowable Medicaid administration costs must be included in a cost allocation plan
approved by CMS. Pursuant to 45 CFR § 95.507, cost allocation plans must conform to
OMB Circular A-87 cost principles. In addition, CMS’s guidance to school-based programs
applies OMB Circular A-87 guidance, particularly with respect to use of an RMTS.
Accordingly, the OMB Circular A-87 cost allocation principles apply to the costs used to
develop the State agency’s MAC payment rate.

Unallowable Overhead Costs

State Agency Comments

The State agency stated that, because contractors perform activities that would otherwise be
performed directly by the State agency, the overhead cost of operating contractor facilities may
be included in calculating the rate paid for Medicaid administration. The State agency said that it
modeled its development of the MAC rates on the approach in the CMS Claiming Guide. The
State agency also stated that, “[b]ecause regulations do not contain a prohibition on the inclusion
of ‘overhead costs of operating a provider facility’ as being part of allowable and claimable
administrative costs … overhead costs were properly included in the claim.”




                                                10
Office of Inspector General Response

CMS’s longstanding policy on administrative claiming, set forth in its 1994 State Medicaid
Director letter, prohibits including costs that are not directly related to Medicaid and,
specifically, the overhead cost of operating a provider agency. Further, the Claiming Guide was
issued specifically for school settings and may not be applicable to the activities of contracted
mental health providers. 10

In developing its RMTS roster, the State agency instructed mental health providers to include all
employees who performed MAC-reimbursable activities. The salaries included in our finding
were related to employees that the State agency excluded from its roster of RMTS participants.
Salaries of individuals who did not perform Medicaid activities (i.e., employees who were not on
the RMTS roster) were not directly related to Medicaid. Further, OMB Circular A-87 requires
that the sampling universe for the RMTS include all employees whose salaries and wages are to
be allocated based on the sample results. Nevertheless, the State agency included nonroster
salaries in the MAC cost pool. Accordingly, overhead costs associated with operating a provider
agency and the salaries of employees who did not perform Medicaid activities and were not
included on the RMTS roster should not have been included in the MAC cost pool.

We continue to recommend that the State agency refund $6,779,704 to the Federal Government.

Unallowable Salaries and Wages

State Agency Comments

The State agency stated that the salaries and wages related to the 15 contracted mental health
providers were properly included in the MAC cost pool because some of the mental health
providers’ employees performed activities that related to the administration of Medicaid. Citing
the December 20, 1994, State Medicaid Director Letter, the State agency argued that operating
costs (including salaries) may be included in MAC cost pool if the State agency can identify the
fraction of effort devoted exclusively to a Medicaid-claimable activity. The State agency further
stated that its RMTS identified this fraction of claimable activity.

Office of Inspector General Response

We reviewed the documentation for the random moments sampled from the 15 mental health
providers’ employees. These employees reported a total of 13 Medicaid-reimbursable moments
out of a total of 750 moments sampled. Of the 13 moments, we found that none of the activities
were documented as Medicaid-related. Consequently, the questioned costs cannot be shown to
be reasonable Medicaid costs. Further, using the statewide RMTS results to allocate a portion of
the salary costs of these 15 mental health providers to Medicaid, when none of their activities
can be documented as Medicaid-reimbursable, is contrary to both the OMB Circular A-87’s

10
  The Claiming Guide was developed to help schools and school districts prepare appropriate claims for
administrative costs under Medicaid and to ensure that Medicaid pays for only appropriate school-based
administrative activities (Claiming Guide, page 1). Schools have a unique role in assuring that Medicaid-required
services to children are provided and that eligible children are enrolled in Medicaid.


                                                        11
“necessary and reasonable” standard and CMS’s guidance under § 1903 (a) of the Act that costs
allowable to Medicaid administration must be necessary for the proper and efficient
administration of the State plan. Therefore, the salary costs of these employees should not have
been included in the cost pool apportioned to Medicaid on the basis of the statewide RMTS.

We continue to recommend that the State agency refund $1,926,000 to the Federal Government.

Random Moment Timestudy Observations Improperly Coded as Medicaid-Reimbursable

State Agency Comments

The State agency stated that it properly coded and documented its reimbursable costs and
modeled its development of the MAC rates on the process described in the Claiming Guide. The
State agency also indicated that State agency officials met with and emailed CMS representatives
in 2004 to provide CMS with an overview of the State agency’s MAC methodology and that
CMS raised no issues or concerns regarding the State agency’s proposed RMTS. In addition, the
State agency stated that it disagreed with what it said was our determination that any work
performed with existing Medicaid clients should be considered part of a direct medical service
and thus included in the direct service rate. Rather, the State agency indicated that other
activities with existing clients (e.g., “referral, coordination, and monitoring of medical services”)
were placed in reimbursable codes in accordance with the Claiming Guide.

Office of Inspector General Response

The Claiming Guide was issued specifically for school settings and may not be applicable to the
activities of contracted mental health providers. However, we reviewed CMS’s Claiming Guide
for guidance on activities that would be properly coded as Medicaid administration under the
MAC activity codes used by the State. According to the Claiming Guide, the RMTS code for
“referral, coordination and monitoring of Medicaid services” should not be used for activities
“that are an integral part of or an extension of a medical service (e.g. patient follow-up, patient
assessment, patient counseling, patient education, patient consultation, billing activities).” The
Claiming Guide directs that those activities should be coded and paid for as direct Medicaid
services, not as Medicaid administration. The Claiming Guide recognizes that in some cases a
referral to a Medicaid-covered service (e.g., family planning or medical or physical
examinations) could be separate from a direct service furnished by the school. However, such
activities must be documented as separate referrals to Medicaid-covered services. The State did
not provide the necessary documentation that mental health providers were referring their clients
to separate, Medicaid-covered services.

In addition, even though the State agency submitted its cost allocation plan to CMS with an
overview and details related to the RMTS, the State agency did not provide documentation that
CMS actually reviewed and approved the State agency’s RMTS methodology and time codes.
Under the Claiming Guide (p. 19) and CMS’s State Medicaid Director Letter, time coding
systems should be approved by CMS before implementation.




                                                 12
The December 20, 1994, State Medicaid Director Letter states that Medicaid pays for
administrative costs related to direct services as part of the payment made for medical or
remedial services. We reviewed the 107 Medicaid-reimbursable moments and found that the
activities coded as “referral, coordination, and monitoring of medical services” appeared to be
patient follow-up, patient assessment, patient counseling, or other physician-extender activities
related to direct services furnished by the mental health providers. These activities should have
been included in the direct service Medicaid rate paid to those providers and not claimed as
Medicaid administration activities. Further, the State agency could not document that the coded
activities were directly related to Medicaid-covered services; were separate from activities that
were, or should have been, reimbursed by Medicaid as part of a medical or remedial service; or
were otherwise reimbursable as Medicaid administration.

We continue to recommend that the State agency refund remaining claim of $11,369,671 to the
Federal Government.

Random Moment Timestudy Deviated From Acceptable Statistical Sampling Practices

State Agency Comments

The State contends that salaries of employees who are not expected to perform Medicaid
administration activities, and who were therefore not included on the RMTS roster, should still
be allocated to Medicaid through the RMTS because they perform general and administrative
activities for the providers. The State believes this approach is consistent with the Claiming
Guide. The State disagreed that the results of the RMTS should only be applied to the period
covered by the RMTS, as required by OMB Circular A-87. The State agency indicated that
“there is no regulation or citation that precluded the results of the study from being employed to
calculate the State’s contract payments in a subsequent period.” The State agency also objected
to our finding that the State agency did not reduce the potential for bias. Nevertheless, the State
agency indicated that it hired a new contractor to develop the State agency’s MAC and that the
new contractor had refined and changed its procedures related to the RMTS to address some of
our concerns.

Office of Inspector General Response

Federal cost principles set forth in OMB Circular A-87 are applicable to costs incurred by the
State under its Federal award, including certain “acceptable statistical sampling standards” for
random moment sampling. OMB Circular A-87 requires that the sampling universe include all
employees whose salaries and wages are to be allocated based on the RMTS sampling results.
Accordingly, salaries of employees who did not perform MAC activities and were not included
on the RMTS roster should not have been included in the costs allocated by the RMTS results.
In addition, contrary to OMB Circular A-87, the State agency applied RMTS results to time
periods not covered by the sample. We also found that the State agency did not adequately
reduce the potential for bias in conducting its RMTS.

We continue to recommend that the State agency refund $2,406,045 to the Federal Government.




                                                13
Medicaid Eligibility Rates Not Documented

State Agency Comments

The State agency indicated that the statewide Medicaid eligibility rate was supported by records
that did not exactly match the rate used for FYs 2005 and 2006. According to the State agency,
the underlying database is dynamic and corrections are made on an ongoing basis. As a result,
the records queried at the time of our audit yielded a slightly different result. In addition, the
State agency agreed that it did not require mental health providers to submit supporting
documentation for their Medicaid eligibility rates. The State agency stated that it relied on
mental health providers to maintain this documentation. The State agency indicated that it has
adjusted its procedures to ensure these providers maintain documentation to support their
Medicaid eligibility rate.

Office of Inspector General Response

The State agency acknowledged that records used to support the statewide Medicaid eligibility
rate were not consistent with the rate actually used; therefore, we continue to recommend that it
maintain supporting documentation for Medicaid eligibility rates used in computing the MAC.




                                                14
APPENDIXES
 APPENDIX A: COMMUNITY-BASED MENTAL HEALTH PROVIDERS THAT DID
            NOT PROVIDE SERVICES COVERED BY MEDICAID

Health Center                                             Non-Medicaid Services Provided
Advance Housing, Inc.                                     Housing services
Alternatives, Inc.                                        Housing services
Health Services, County of Bergen                         Legal services
Bridgeway Rehabilitation Services, Inc.                   Housing services
Career Opportunity Development, Inc.                      Housing services
Central Jersey Legal Services                             Legal services
Dept. of Social Services, City of Asbury Park             Legal services
Collaborative Support Programs of NJ, Inc.                Legal and housing services
Community Health Law Project                              Legal services
Legal Services of Northwest Jersey                        Legal services
Mental Health Association in New Jersey, Inc.             Legal, employment, family, and
                                                           other services
Mental Health Association of Monmouth County              Housing and family services
Mental Health Association in Passaic County               Legal, family, and other services
Resources for Human Development                           Housing services
United Family and Children’s Society                      Legal services


Note: Advance Housing, Inc.; Bridgeway Rehabilitation Services; Career Opportunity
Development; and Alternatives, Inc., had additional fully reimbursed Medicaid and/or Division
of Development Disability programs that were properly excluded from the Medicaid
Administrative Claim cost pool.
                                                                                                       Page 1 of 16


                         APPEN DIX B: STATE AGENCY COMM ENTS 





                                           Jilah of Ne£v JI..--.
                                            DF.l'ARTMr....' TOI' H UMAN SEItVICf.s
                                D lvlSlO:\ Of MEDICAl AS.'iI$TANC'F. 1\1.;0 HEAI.TII SeRVICES
CH RIS CHRISTIE                                         P.O IM1X 71 2                           JIO."INIFl::R V ~t.E7
   Gow"""                                          Trenton. NJ 0862S.Q712                        C"",,,,iu,,,,,u

K r:..l G UADA(iSO                                                                               V"l.fRIf: HAR ~
  '-I,  G~"~I'IIM                                                                                     Di"cror
                                                 November 7, 201 1


         James P. Edert
         Regional Inspector General for Audit Services
         Department of Health and Human Services
         Office of Inspector General
         Office of Audit Services Region II
         Jacob K. Javits Federal Building
         26 Federal Plaza - Room 3900
         New York;, NY 10278

         Report Number: A-02·08-01009

         Dear Mr. Edert:

         This is in response to your Jetter dated September 7, 2011 concerning the Department
         of Health and Human Services, Office of the Inspector General's (DIG) draft report
                  Review of Medicaid Administrative Costs Claimed by New Jersey fOr State
         entitled M
         Fiscal Years 2005 and 2006" Your letter provides the opportunity 10 comment on this
         draft report.

         The objective of this review was to detennine whether the New Jersey Department of
         Human Services' Division Medical Assistance and Health Services's (DMAHS) Medicaid
         A dministrative Claiming (MAC) for fisca l years 2005 and 2006 complied with Federal
         requirements for claiming costs associated with administration of the State Medicaid
         plan . Specifically, the State contracts with community-based mental health centers to
         provide Medicaid-related mental health and related services. TiUe XIX of the Social
         Security Act permits states to claim Federal reimbursement for 50 percent of the costs
         of administrative activities that are necessary for the proper and efficient administration
         of the State Medicaid plan . The review focused on the MAC claiming for these mental
         health centers.

         The draft audit report concluded that New Jersey's MAC claiming did not comply with
         Federal requirements for claiming costs associated with the administration of the State
         Medicaid plan . Specifically, Maximus , DMAHS's contractor who developed the claiming
         methodology, included unallowable sa laries and operating costs in the cost pool used to
         com pute the MAC, resulting in a claim for 522 ,223,499 ($11 ,11 1,750 Federal share) in
                                                                                         Page 2 of 16




Mr. James P. Eden 

November 7, 2011 

Page 2 


excess Medicaid administrative costs. In addition , as part of the allocation method used
to identify salary costs to be included in the payment rate, Maximus assigned Medicaid­
reimbursable RMTS codes to workers' acti vities that were not allowable costs related to
Med icaid administration , or could not be documented as related to Medicaid , and
performed an RMTS that deviated from acceptable statistical sampling practices.
Finally, in calculating the MAC payment rate, DMAHS used Medicaid eligibility rates that
could not be documented. Therefore, the remaining $22 ,739,432 ($11,369,67 1 Federal
share) of administrative costs claimed was deemed unallowable. The draft audit report
stated that these errors occurred because OMAHS did not establish adequate policies
and procedures to ensure that its MAC complied with Federal requirements.

We appreciate the opportu nity to provide this response to the draft OIG audit report.
Following are the auditors recommendations and OMAHS's responses:

Recommendation 1:

The DIG recommends that New Jersey should refund $22,481 ,421 to the Federal
Government:

The State does not concur with this recommendation. Several of the issues addressed
later in this letter derive in part from the aud itors' assertion that the Federal Office of
Management and Budget (OMB) Circular A-a? applies to the detailed method the State
used to calculate the payment which con tracted community providers are paid to
provide Medicaid Administrative Services. In other words, the auditors' argue that the
cost allocation methods used in the provider rate development process must map to
those outlined in A-S?, which establishes cost principles for state, local, or Indian tribal
governments. The auditors' contend that because the costs were claimed by a state
agency, A-a? must apply to the calculation of those costs, and thus to the rale
development.

Applicability of A·8T:

The State believes that this position is flawed because it fa ils to distinguish between the
costs for which the State is seeking reimbursement and the costs to which Section
S.h.(6) of Attachment B of A-a7 applies. The Sta te's administrative claim consists of a
con tractually required payment to be made by the State to provider agencies tha t
represents a reasonable estimation of the costs to be incurred by such agencies in
performing allowable Medicaid administrative activities. It is not a claim for the costs of
activities performed by State agency personnel. Since Section B.h(6) relates solely to
compensation for personal services of State agency personnel, it is totally unrelated to
the contractually required payment that the State is claiming. Thus, while we agree that
the general principles contained in Attachment A of A-a? apply to the claiming of the
payments themselves in that the costs must be reasonable, we disagree that
Attachment B, Section 8 applies to the specific method used to calcula te provider rates.
OMB Circu lar A-a?, which contains the cost principles for State, Local and Indian Tribal
governments fo r the administration of federal awards, states that, "Governmental units
                                                                                          Page 3 of 16




Mr. James F>. Eder1 

November 7, 201 1 

Page 3

are responsible for the efficient and effective administration of federal awards." Under
these provisions, costs must be reasonable and necessary for the operation of the
governmental unit or the performance of the federal award. OMS Circular A-87 goes on
to state "Reasonable Costs - A cost is reasonable if, in its nature and amount, it does
nol exceed that which would be incurred by a prudent person under the circumstances
prevailing at the lime the decision was made to incur the cost.. " and "In determining
reasonableness of a given cost, consideration shall be given to:

    A. 	 Whether the cost is of a type generally recognized as ordinary and necessary for
         the operation of the governmental unit or the perfoonance of the Federal award .
    B. 	The restraints or requirements imposed by such factors as: sound business
         practices ; aons length bargaining; Federal, State and other laws and regula tions ;
         and , terms and conditions of the Federal award.
    C. Market prices for comparable goods or services .
    D. Whether 	the individuals concerned acted with prudence in the circumstances
         considering their responsibilities to the governmental unit, its employees, the
        public at large, and the Federal Government."

The State argues that A·S7 is only applicable to these provider costs in tha t the cost
paid by the State for the administrative functions perfooned by the provider agencies
must be reasonable, since they are contracted provider payments - not costs of the
state agency staff directly performing these activities. The State has established what it
contends is a reasonable method for establishing a rate paid to the providers for the
purchase of Medica id administrative services. Providers are paid pursuant to their
contract at this rate, and once the payments are made, the State claims these
payments. The payment must be claimed consistent with the principles con tained in
Attachment A of A-B7, and the rate must be "reasonable", however the specific method
for calculating the rate is not defined by A-87.

As a parallel example, in a foster care setting the state Title IV-E agency pays foster
homes (providers) for the room, board, and supervision of the child via a monthly foster
home payment (rate) , which can be claimed 10 the Title IV-E program. States do not
develop these ra tes by applying the same A-B7 cost allocation principles that they would
apply to developing claims for their own state agency staff costs. Rather, a reasonable
method is used for establishing rates for various levels of care, this rate is paid to the
provider, and payment made is the agency costs, assuming the child is Title IV-E
eligible.

Unallowable Administrative Costs Included In Medicaid Adminis trative Cost Pool:

Unallowable Overhead Costs:

Finding :

The auditors' draft audit report contends that overhead costs of the mental health
providers were improperly included in the MAC cost pool. The costs consisted of
                                                                                         Page 4 of 16




Mr. James P. Eder1 

November 7, 2011 

Page 4

operating costs that were not directly related to the administration of the Medicaid
program and were operating costs of an agency whose purpose is other than
administration of the Medicaid program . As a resul t, DMAHS claimed excess Medicaid
administration costs of $6,779,704.

Response :

The State disagrees with the auditors' assertion that overhead costs were improperly
included in the claim .    We believe thai such costs are properly includable as a
component of the rates paid.      The auditors cite a December 20, 1994 eMS Slate
Medicaid Director Letter regarding administrative case management.              The report
includes a bullet from page 5 of the December letter indicating thai an allowable
administrative cost. .. "may not include the overhead costs of operating a provider facility
such as the supervision and training of providers. "

 In developing Ihe rates paid 10 the non-profit behavioral health service providers for
administrative activities, the State modeled its approach on the School-Based
Administrative Claiming Guide (School MAC Guide) issued by the Centers for Medicaid
and Medicare Services (eMS) . This is the only resource we have found which speaks
directly to a method for calculating Medicaid Administration in a non-state agency
setting. Schools playa similar role to Division of Mental Health Services (DMHS)
community based agencies in terms of Medicaid administration. Schools perform
Medicaid Administration on behalf of a stale under an interagency agreement between
the local education agency and the State.            DMHS providers perform Medicaid
Administration on behalf of the State of New Jersey pursuant to a contract between
DMHS and the provider. In both cases the entity is serving individuals who have a
likelihood of being Medicaid eligible, and in both cases the purpose of the entity is not
exclusively provision of Medicaid services or Medicaid Administration. Both school staff
and community mental health providers play an important role on behalf of the state in
ensuring and promoting that the vulnerable populations get access to needed Medicaid
services. Given all of these similarities, and the fact that this is published guidance from
the federal cognizant agency (CMS). New Jersey concluded that it was reasonable to
model a rate development process on this guide.

The School MAC Guide served as the basis for New Jersey's approach to developing
compensation rates. These rates are paid to entities to perform activities that are
necessary for the proper and efficient administration of the State Medicaid program that
would otherwise have been performed directly by the State itself.

As such the State contends that the overhead costs included in our claim are allowable
and are the same as those claimed in school-based settings nationwide, as well as in
community settings in other states such as Indiana. As an example, the Departmental
Appeals Board (DAB) made a decision related to Medicaid Administration in Texas DAB
2187 (2008). In addreSSing a particular questioned cost under dispute, the decision
described that Texas included costs above and beyond those of the direct service staff
                                                                                          Page 5 of 16



Mr. James P. Edert 

Novembeor 7. 201 1 

Page 5

salaries and benefits as Medicaid administrative costs - and neither eMS nor the DAB
questioned the appropriateness of including such costs, nor were they included via
application of an indirect cost rate. Texas' claimed costs included "direct support staff'
of time study participants. "materials, supplies, travel, and other operating costs for staff
in the time study and their support staff. While the auditors question the inclusion of
such costs in our rate development in New Jersey, these costs were not questioned by
eMS or the DAB in Texas. Rather, eMS and the Board were focused on one particular
item included within these ·operating costs" which they determined to be educational in
nature, not a general operating cost. Only this specific "educational" cost was
disallowed.

The Stale further disputes the auditors' assertion because the State questions the
applicability and enforceability of the statement contained in the bullet from page 5 of
the December 20. 1994 CMS State Medicaid Director Letter. On page 7 of the letter. the
Health Care Financing Administration (the prior name for CMS) indicated that "(W)e
plan to issue an expanded list of policy interpretations to guide States' decision making
regarding allowable costs for Medicaid administrative match for ACM [administrative
case management) and other functions performed by state or local governments in a
SMM [State Medicaid Manual] issuance. We also intend to incorporate these
interpretations in regulations: By this statement, HCFA tacitly admitted that, in order for
the policies contained in the letter to be given force, its contents must be included in
either an official document, such as the SMM, or codified as official policy in the Code of
Federal Regulations. To our knowledge, neither of these actions was ever taken .
Because the regulations do not contain a prohibition on the inclusion of "overhead costs
of operating a provider facility' as being a part of allowable and claimable administrative
costs , as is the case with respect to 75% FFP for the costs of Skilled Professional
Med ical Personnel. we maintain that overhead costs were property included in the
claim.

Unallowable Salaries and Wages :

Finding :

The auditors contend that unallowable salaries and wages were improperly included in
the MAC cost pool related to employees at 15 menta l health providers that provided few
or no services covered under the Medicaid program. As a result, DMAHS claimed
excess Medicaid administration costs of 51,926.000.

Response :

The auditors' position is that because for some of these providers, their primary mission
is providing "related social, family, legal , or housing" services, they could not be
performing activities which directly benefit the Medicaid program. As authority for its
position, they cite a bullet on page 6 of the December 20, 1994 CMS State Medicaid
Director Letter indicating that allowable administrative costs.. . "may not include the
operating costs of an agency whose purpose is other than the administration of the
                                                                                                Page 6 of 16




Mr. James P. Edert 

November7,:2Ql1 

Page 5 


Medicaid program, such as the operation of a probation department." The State strongly
disagrees that this prohibition is applicable with respect to the 15 provider agencies
referenced in the DIG draft report.

Unlike a probation department. that performs functions totally distinct from that of
Medicaid type providers, the Division of Mental Health Services (DMHS) providers serve
clients with mental illness, which is a vulnerable population for whom the provision of
regular care is particularly critical. A crucial role that all providers play - even those
such as the 15 providers referenced in the DIG draft report, that they themselves are
nol providing direct Medicaid services - is assuring that these clients obtain and
maintain regular access to Medicaid covered behavioral health and medical care, Thus,
similar to schools in the School-Based MAC program, whose primary purpose is to
provide services that are not Medicaid eligible or directly related to the Medicaid State
Plan, staff within these 15 mental hea!th providers do perform activities which directly
relate to the administration of the Medicaid program and should therefore be allowable
under the MAC claim. The State contends that the nature of the activity rather than the
nature of the entity is what should govern the claimability.

Furthermore 7 of the providers at issue are providing community support services for
individuals in supportive housing settings, which is a coverable Medicaid service. The
audit characterizes these as housing services. NJ received eMS approval of a SPA to
cover community support services effective 10/1/11. The fact that this service was not a
covered service at the time of audit is irrelevant as the service is in fact coverable and
NJ has an approved SPA to provide this service. Again we would argue that the focus
must be upon the nature of the administrative activities being performed, not the nature
of the entity.

As the above paragraphs ind icate. the 15 cited provider agencies do perform necessary
and allowable Medicaid administrative tasks. As a consequence, their activities and
costs fall under another statement contained in the December 1994 CMS Letter that
was not cited in the OIG draft audit report. As a caveat to the prohibition cited in the DIG
draft report, and placed immediately after it, the Letter states:

However, to the degree that a governmental agency directs some fraction of its efforts
exclusively to Medicaid claimable administrative services, and can accurately identify
that fraction, it may claim an appropriate portion of its operating costs to support that
function if all other criteria fOf administrative claiming is satisfied (e.g. , direct relationship
to the State plan , health-related, etc.)

As permitted by the above paragraph, the Stale's methodology , through use of the
Random Moment Time Study (RMTS), accurately identified the "traction" of the efforts
expended exclusively to Medicaid claimable administrative activities by staff at the 15
cited provider agencies and included only the appropriate portion of the provider
agencies' operating costs related to such Medicaid claimable administrative activities in
determining the amount of the contract payment to be made by the State to the
agencies. Thus, contrary to the auditors' pOSition, the inclusion of 15 questioned
                                                                                       Page 7 of 16




Mr. James P. Eden 

November 7. 2011 

Page 7 


provider agencies in the sample and the designation of a portion of their costs as
representing allowable Medicaid administrative expenditures are appropriate and
allowable.

Random Moment Time Study Observations Improperly Coded As Medicaid
Reimbursable:

Random Moment Time study Codes IncorrecUy Assigned or Insufficientlv
Documented:

Finding :

The audit report indicates that for the moments sampled, Medica id reimbursable codes
were incorrectly assigned to non-Medicaid activities or thai activities were not
sufficiently documented to show tt:at they were related to Medicaid. The audit report
slates that the State Agency was unable to document or otherwise support that
activities coded as Medicaid-reimbursable were directly related to the Med icaid State
Plan; were separate from activities that were, or should have been, reimbursed by
Medicaid as part of a med ical or remedial service; or were otherwise reimbursable as
Medicaid administration. As a result, DMAHS' remaining claim of 51 1,369,671 of
administrative costs was unallowable.

Response :

The State disagrees with the audit report and believes that allowable Medicaid­
 reimbursable costs were properly coded and documented. As previously mentioned
throughout this response letter, New Jersey Division of Mental Health modeled its
 Medicaid Administrative Claiming/Random Moment Time Study process to the School
MAC Guide issued by CMS. The School MAC Guide provides a suggested coding
structure for time studies used for Med icaid administration. On May 27 , 2004 , New
Jersey Division of Mental Health Services staff met with CMS representatives and
provided an overview of the Medicaid Administrative Claiming for Community Mental
Health Center Contracted Services as described in a Division of Menta l Health Services'
staff email dated May 27, 2004. On November 19, 2004 Division of Mental Health
Services staff provided through email to regional CMS representatives details regarding
the program , including the fact that a time study would be utilized in development of the
rate, and definitions of the time study codes.      There were many examples listed for
each of the time study codes.           Providing crisis or hot-line phone services for
health/mental health care services was one of the examples listed for the Referral ,
Coordination and Monitoring of Medical Services (not TCM) code and perta ins to clients
that we serve and not a general crisis hotline. CMS raised no issues or concerns
pertaining to any of the time study code definitions prior to the approval of the cost
allocation plan.

In regard to allowable Medicaid administration activities and costs, according to the
Medicaid statute at section 1903(a)(7) of the Act and the implementing regulations at 42
                                                                                          Page 8 of 16




Mr. James P. Edert
November 7, 201 1
Page 8

CFR 430.1 and 42 CFR 431 .15, for the cost of any activities to be allowable and
reimbursable under Medicaid, the activities must be "found necessary by the Secretary
for the proper and efficient administration of the plan" (referring to the Medicaid sta te
plan).

Medicaid Administrative Claiming has been approved by the Center for Medicare and
Medicaid Services. The Siale Medicaid Manual (SMM) Section 4302 identifies certain
activities that may be property claimed as administrative case management. An
allowable administrative cos t must be directly related to a Medicaid state plan or waiver
service, and be necessary for the ~prope r and efficient administration of the state p lan .~
Some examples of administrative case management selVices addressed at SMM
Section 4302.2 (G)(2), are:

    •	   Medicaid eligibility determinations and redeterminations;
    •	   Medicaid intake processing ;
    •	   Medicaid preadmission screening for inpatient care;
    •	   Prior authorization for Med icaid selVices;
    •	   Utilization review; and
    •	   Medica id outreach

In the State Med ica id Director Letter (SMD) December 20, 1994 , the Hea lth Care
Financing Administration (now CMS) provides a similar list of administrative activities ,
but indicates that this list from the SMM "was not intended to be all-inclusive".

The auditors ' took issue with the coding of moments in the 2005-2006 fiscal year time
studies and indicated that any work with an existing client should be considered part of
the direct medica l selVice, and thus included in the rate for direct medical selVices. We
disagree with this find ing and interpretation of the December 20, 1994, State Medicaid
Director l etter. The time study responses for certa in activities with existing clients such
as the patient follow-up, patient assessment, patient education, counseling activities
were placed in non-reimbursable activity codes. Other activities with existing clients
such as referral, coordination and monitoring of medica l selVices were placed in
reimbu rsable codes. Again as expressed throughout this response the Stale's guide
has been the MAC School guide.

Additionally the providers and programs included in the MAC program do not have rales
established which include Medicaid administration and administrative case
management. DMHS does have several programs which utilize "fully loaded" rates
(such as Integrated Case Management, PACT, Partial Care, and Residential SelVices)
which include Med icaid administration as part of the rate , however:

         • 	 Provider liaisons were instructed to exclude staff from the time study that
             were 100% assigned to these programs
         • 	 For staff who were partially assigned to these programs, if working on these
             programs when sampled, the time spent to these programs was assigned to a
             non-allowable code
                                                                                    Page 9 of 16




Mr. James P. Edert
November 7, 201 1
Page 9

         • 	 During the rate development, costs associated with these programs were
             excluded from the cost pool.

Other services reimbursed through a Medicaid rate include Individual Psychotherapy,
Group Psychotherapy, Family Therapy, Medication Monitoring , Intake Evaluation,
Psychological Testing and Family Conference. Some of these rates have not been
updated since the late 1980's and/or mid 1990's and are nol considered to be fully
loaded rates (i.e. do not include reimbursement of Medicaid administrative costs).
The School MAC Guide provides suggested coding structure for time studies used for
Med icaid administration, a structure upon which New Jersey based its MAC time study.
This coding structure provides for seven allowable administrative activities, as
demonstrated in the table below, in addition to allowing for a reallocated portion of
general administrative activities to be attributed to Medicaid administration .

                     SCHOOL     MAC GUIDE                     REIMBURSABLE
                     CODE                                     STATUS
                     CODE     1.b.  Medicaid                  Total Medicaid ­
                     Outreach                                 100% Medicaid
                                                              activity
                     CODE      2.b.     Facilitating          Total Medicaid
                     Medicaid             Eligibility
                     Determination
                     CODE 5.b. Transportation                 Partial Medicaid
                     Related Activities in Support            - Medicaid when
                     0'     Medicaid      Covered             performed       '0'
                                                              Medicaid eligible
                     Services
                                                              client, 0'   when
                                                              Medicaid
                                                              Eligibility Rate is
                                                              applied
                     CODE      S.b.    Translation            Partial Medicaid
                     Related to Medicaid Services
                     CODE       7.b.     Program              Partial Medicaid
                     Planning,              Policy
                     Development,             and
                     Interagency      Coordination
                     Related to Medical Services
                     CODE B.b. Medical/Medicaid               Partial Medicaid
                     Related Training
                     CODE       9.b.     Referral ,           Partial Medicaid
                     Coordination , and Monitoring
                     of Medicaid Services

The most common allowable activity performed by DMHS contracted community
providers is "Referral, Coordination and Monitoring of Med icaid Services~, which the
                                                                                         Page 10 of 16




Mr. James P. Eden 

November 7, 2011 

Page 10 


School MAC Guide defines as "making referrals for, coordinating, and/or monitoring the
delivery of medical (Medicaid covered) services, " The guide clearly anticipates and
distinguishes these activities from activities which are "an integral part or extension of a
medical service (e.g. , patient follow-up, patient assessment, patient counseling , patient
education, patient consultation, and billing activities)", This definition simply makes no
sense if DIG is correct in their characterization that there is no Medicaid administration
for existing clients that is not part of the direct service rate.

Random Moment Time Study Deviated From Accep table Statistical Sampling
Practices:
Random Moment Time Study Used To Allocate Salaries of Employees Not in the
Sampling Universe:

Finding:

The auditors' report contends that the salaries of employees that contracted mental
health providers did not include on the RMTS roster as performing reimbursable MAC
activities were included by the State in the cost pool that was allocated using the results
of the RMTS. As a result, DMAHS claimed excess Medicaid administrative costs of
$2,406 ,045.

Response:

The State disagrees that such salaries should not have been included in the cost pool
that was subsequently allocated using the results of the RMTS. Staff assigned to the
General and Administrative Cost Column per the DMHS budget can be included in the
RMTS if they perform Medicaid Administrative activities. If they do not perform Medicaid
Administrative activities directly thus qualifying for participation in the RMTS, they are
assigned to the G&A cost pool and subsequently allocated as G&A to benefiting
program. As noted above the State contends that G&A costs are fUlly allowable costs.

As discussed previously, in developing the model for the MAC Program the State relied
upon the CMS School MAC guide, the only detailed, operational document issued by
CMS about claiming Medicaid administration. In discussing the type of staff that shoutd
be included in a MAC time study, CMS never excludes the type of administrative titles
cited by the auditors. In fact, the guide provides two basic prinCiples for the inclusion of
staff:

• 	 Staff whose salaries are 100% funded by non state/local funds should not be
    included , as a revenue offset would be required , effectively nullifying the addition of
    their costs in the cost pool. "For example, if federal funding sources or third party
    payers other than Medicaid meet 100 percent of the costs of social workers, then
    there would be no reason to include such workers in the time study and they must
    be excluded from participation. ·
                                                                                          Page 11 of16



Mr. James p , Edert 

November 7, 2011 

Page 11

• 	 Only staff that perform Medicaid administrative activities should be included . "For
    example, medical staff hired by the schools as contractors and reimbursed on a
    fixed fee basis ... and who do not perform any other administrative activities , should
    not be included in the time study."

eMS advocates in the School MAC guide examining the responsibilities of individual
staff to determine if their job responsibilities include Medicaid administrative acti'lities .
such as reviewing position descriptions, to determine jf a particular staff member is
appropriate for inclusion .

 Because of the large number of community providers participating in the program, the
program includes agencies with widely varied organizational structures. In many of the
smaller agencies, staff commonly serve multiple functions, and their official tille may not
be indicative of the types of activities the person actually performs. As a result of this
variety, DMHS could not have crea ted a list of "acceptable" titles for inclusion in the
study. Instead, the State detennined that the community providers themselves would
be in the best position to determine which staff would be appropriate for inclusion in the
study. Providers in the MAC program were asked to establish a program liaison that
was responsible for preparing and submitting an agency roster of staff for participation
in the time study. Staff were to be included on the roster based upon a number of rules,
including the following principles:

          Staff are expected to perform Medicaid administrative activities
          Staff are paid staff
          Staff are not 100% federally funded
          Staff are not funded under one of several New Jersey programs which have fully
          loaded rates (including Medicaid administration)
          Staff are not classified as 100% indirect

Agencies were provided an opportunity on a quarterly basis to update their staff rosters.
The instructions for these updates, repeated the guidelines for what types of staff
should be included in the study.

While some program liaisons may have made errors in the application of these
guidelines, the general approach that the State implemented is consistent with the
School MAC guide. It is not the title of the individual. but whether or not they are
expected to perform MAC activities that is the detennining factor of whether or not the
person is to be included .

Moreover, our position is further supported by Texas DAB 2187 (2008), in which the
DAB found in favor of the state related to the inclusion of non-direct service staff in the
time study. OIG argued that "school principals, their secretaries, school
superintendents, and certa in other categories of school personnel on the ground that
these ind ividuals did not perform activities related to Medicaid." Texas demonstrated
via time study results that these types of staff did perform Medicaid administrative
activities , "CMS disavowed the original basis for the disallowance", and the DAB
                                                                                       Page 12 of 16




Mr. Jarrn!s P. Edert 

November 7, 2011 

Page 12 


reversed the disallowance. Additionally, this decision includes discussion of contractor
costs, including some contractors that did not provide direct services.        Again , the
conclusion was that even though these con tractors did nol provide direct services, they
still could be included in the time study.

Random Moment Time Study Did Not Cover Period to Which It Was Applied:

Finding :

The auditors question the propriety of the State's claim because the Slate applied the
results of the RMTS to a period that was nol covered by the time study. The RMTS was
performed for the period February 15, 2005 through Apri115, 2005, whereas the results
were applied to the administrative costs for the period October 1, 2004 through June
30. 2006. In doing so, the OIG cites OMB Circular A-8?, Attachment B, Section
8.h.(6)(a){ii), which states that "the entire time period involved must be covered by the
sample, as justification for its action.

Response:

The State disagrees with the auditors' position and believes that it is flawed because it
fails to distingu ish between the costs for which the State is seek.ing reimbursement and
the costs to which Section B.h.(6){a)(ii) of Attachment B of A-8? applies.

The State's admin istrative claim consists of a contractually required payment to be
made by the State to provider agencies that represents a reasonable estimation of the
costs to be incurred by such agencies in performing allowable Medicaid administrative
activities. As such, it does not represent a claim for the costs of activities performed by
State agency personnel. Consequently, Section B.h.(6)(a){ii) is simply not applicable in
this matter because it pertains solely to the calculation of compensation for personal
services of State agency personnel and therefore is totally unrelated to the contractually
required payment that the State is claiming. Thus, the auditor is incorrect in citing this
section of A-a7 as a basis of questioning the State's claim.

In order to determine an appropriate amount of the State's contract payment that meets
the "reasonableness~ standard contained in Circular A-a? , the State is required to
employ a valid methodology designed to accurately determine the portion of total
provider agency time and effort expended on allowable and reimbursable Medicaid
administrative activities. The method chosen 10 do so is the RMTS. In the current
dispute, a RMTS was performed during the period February 15, 2005 through April 15,
2005 and the resulting percentage ra te of time spent on allowable provider agency
Medicaid administrative activities was employed to determine the amount of the State's
lotal contractual payments to be made to the provider agencies .for the period October
1, 2004 through June 30, 2006. Since, in the State's claiming process, the RMTS
serves solely as the mechanism to accurately determine the portion of total provider
agency lime and effort expended on allowable and reimbursable Medicaid
administrative activities, there is no regulation or citation that precludes the results of
                                                                                          Page 13 of 16




Mr. James P. Edert
November 7, 2011
Page 13

the study from being employed to calculate the Slale's contract payments in a different
period .

Random Moment Time Study Did Not Reduce the Potential for Bias:

Finding:

The auditors contend that the RMTS deviated from acceptable statistical sampling
practices because it did nol reduce the potential for bias by ensuring that (1) study
participants did not have access to potentially biasing information, and (2) selected
employees were not notified in advance. Specifically, the RMTS methodology contained
the following deviations from acceptable statistical sampling practices to reduce bias:

    1. 	Instructional materials provided to the menta l health providers contained
          potentially biasing statements that compliance with the RMTS would help
          generate additional funds fo r New Jersey and the mental health providers.

    2. 	 DMHS gave the mental health providers the names and contact times of
         employees prior to conducting the RMTS thereby potentially influencing the
        employees' assigned duties at the time they were polled.

Response:

The State's position on each of the above is as fo llows:

   1. 	 While it is true that time study information forms and liaison instructions ind icated
        that participation in the program could generate additional funds fo r both the
        state and the community providers, the State disagrees that these statements
        are biasing. These materials were created to inform potential participants of the
        reasons why a time study was being implemented and imposed upon them, a
        common sense necessity in order to obtain worker cooperation , that they might
       be contacted , and to emphasize the importance of responding to time study
       phone pollers. Given the busy schedules of the community agency staff, this
       information was provided to encourage their cooperation , thereby allowing for a
       more accurate time study result. Contrary to the implication in the auditors' draft
       report's conclusion. staff were not informed or ·coached" as to which response
       would result in additional funding - but instead, were only requested to provide
       information on the activity they were performing in sufficient detail in order to
       allow the phone poller to assign a code to their activity.

       Moreover, it is not unusual to inform staff that a function they are performing
       (responding to the time study) other than the actual direct service, is important for
       agency funding . As an example, clinicians may be asked to complete special
       forms, documentation , or coding fo llowing an office visi t to allow for billing to
       Medica id or third party insurance.
                                                                                            Page 140f l6



 Mr. JlKTles P. Edert
 November 7, 2011
 Page 14

     2. 	The School MAC guide says "All slaff in the sample universe should be
         adequately trained before the sampling begins. Training should cover all aspects
         of the sampling process. ~ The State chose to accomplish this via distribution of a
         time study training informalion form to be given to time study participants. In an
         effort to ensure that all staff that were to participate in the time study each quarter
         had been furnished with this information form, each community agency's liaison
         was provided with a ~control list" of sampled employees for the quarter. The
         purpose of this list was not as the auditor's draft report implies, to notify the
         sampled individuals in advance of the day or time of their moment, but instead to
         ensure that all individuals had received training materials consistent with the
         School MAC guide. At no time did the state request the provider liaisons to
         advise employees when they would be contacted . Given the large number of
         participants statewide. this approach was used to assure that when an individual
         was sampled , they would be conscious of the program and be in a position to
         participate according to the established guidelines.

         As the program moved forward, the state moved to providing a control list which
         included individual names, but not dates or times to avoid any possibility of
         advance notice; finally the use of a control list was abandoned and liaisons were
         asked to provide the training materials to every rostered staff member, since all
         had a chance of being sampled, rather than just to those staff who were selected
         for the study.

         The auditors contend that any party in a community agency knowing who might
         participate in the study introduces unacceptable bias. The State disagrees with
         this position. Many states utilize paper time studies or ·observe~ time studies for
         allocation of costs in one or more public assistance programs. In both of these
         cases, someone within the agency must know ahead of time who will be sam pled
         when. to ensure that the sampled individual is either provided the paper time
         study form, or that the observer visits the sampled individual to observe their
         activities. Although the procedures for the program were changed over time. we
         still contend that the notification to an agency liaison of the sampled individuals
         and the sampled moments was acceptable.

Medicaid Eligibilitv Rates (MER) Not Documented:

Finding :

The auditors con tend that the State did not maintain documents to support the MER
used to determine the percentage of employee efforts applicable to the Medicaid
program and further that the providers did not maintain such documentation .

Response :

The State required providers to develop and submit their MER. For providers that failed
to do so the State developed a statewide MER rate that was used in the absence of a
                                                                                       Page 15 of 16



Mi. James P . Eo'ert
November 7, 2011
Page 15

provider specific MER rale. The Stale concurs that we did not specifically require
providers to submit the underlying documentation for the development of their MER and
instead relied on providers to maintain such documentation.

The underlying database for the calculation of the statewide MER is dynamic and
corrections are made on an ongoing basis from time-to-time after the period at issue.
As a result, querying the records currently in the database for SFY 2005 and SFY 2006
yielded a result slightly different than that from the original query. The originally query
used for the claim yielded a statewide MER of 35.8% and the current query of the
applicable period yielded 31 .1%.

Recommendation 2:

The OIG Recommends that DMAHS maintain Supporting Documentation fo r
Medicaid Reimbursable Ac ti vities :

Response:

As detailed above, the State believes that the RMTS coding was appropriate and that
the documentation maintained did clearly support the allowability of the activities.
Prospectively the State is considering amending the State Plan to request permission
for the entity administering the RMTS to use an email response system to provide
further documentation trail regarding the exact nature of the activities being performed .
The concerns raised through this audit have been communicated to the administering
entity so that staff administering the RMTS can reinforce efforts to obtain clear
comprehensive evidence of the activities to assure proper coding.

Recommendation 3:




While the State believes that the RMTS used during this audit period to allocate cos ts to
Med icaid were acceptable, the State has replaced Maximus and re tained Public
Consulting Group (peG) to develop MAC claims for subsequent years. PCG also uses
a RMTS to identify the Medicaid administration activities of slaff in the contracted
mental health centers. Public Consulting Group has refined and changed the RMTS
procedures to add ress some of the concerns expressed by the auditors.

Recommendatio n 4 :

The OIG Recommends that DMAHS Maintain Supporting Doc umentation for
Medicaid Eligibility Rates Used in Computing the MAC :
                                                                                  Page 16 of 16




Mr. James P. Edert
Noyember 7, 2011
Paga 16

Response:

The Stale has adjusted its procedures to assure prospectively thai providers submit an
attestation with their MER data regarding maintenance of underlying documentation.
This documentation will be available for a review by an auditor.

If you have any questions or require additional information, please contact me or
Richard Hurd at (609) 588-2550. I would like to thank the OIG audit team for their
professionalism throughout the audit and our review of their findings and
recommendations.

                                         Sincerely,



                                         Valerie Harr
                                         Director

VH:H
c: 	    Jennifer Velez
        Richard Hurd
